           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


        SINGLE AUDIT OF THE
  COMMONWEALTH OF PENNSYLVANIA
     FOR THE FISCAL YEAR ENDED
            JUNE 30, 2008

      March 2010   A-77-10-00003




 MANAGEMENT
ADVISORY REPORT
                                               Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d
in ve s tig a tio n s , we ins p ire p u b lic c o n fid e nc e in th e in te g rity a n d s e c u rity o f
S S A’s p ro g ra m s a n d o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d
a b u s e . We p ro vid e tim e ly, u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to
Ad m in is tra tio n o ffic ia ls , Co n g re s s a n d th e p u b lic .

                                              Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive
u n its , c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). The m is s ion o f th e OIG,
a s s p e lle d o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d
     p ro p o s e d le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s
     a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d
     o f p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e
     re vie ws .

                                                Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d ,
wa s te a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n
e n viro n m e n t th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e n c ou ra g in g
e m p lo ye e d e ve lo p m e n t a n d re te n tio n a n d fo s te rin g d ive rs ity a n d
in n o va tio n .
                                            SOCIAL SECURITY
MEMORANDUM

Date:      March 8, 2010                                                                  Refer To:

To:        Candace Skurnik
           Director
           Audit Management and Liaison Staff

From:      Inspector General

Subject:   Management Advisory Report: Single Audit of the Commonwealth of Pennsylvania for
           the Fiscal Year Ended June 30, 2008 (A-77-10-00003)


           This report presents the Social Security Administration’s (SSA) portion of the single
           audit of the Commonwealth of Pennsylvania for the Fiscal Year ended June 30, 2008.
           Our objective was to report internal control weaknesses, noncompliance issues, and
           unallowable costs identified in the single audit to SSA for resolution action.

           The Pennsylvania Auditor General and Ernst and Young, LLP performed the audit. The
           results of the desk review conducted by the Department of Health and Human Services
           (HHS) concluded that the audit met Federal requirements. In reporting the results of the
           single audit, we relied entirely on the internal control and compliance work performed by
           the Pennsylvania Auditor General and Ernst and Young, LLP and the reviews
           performed by HHS. We conducted our review in accordance with the Quality Standards
           for Inspections issued by the President’s Council on Integrity and Efficiency. 1

           For single audit purposes, the Office of Management and Budget assigns Federal
           programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
           Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
           CFDA number 96. SSA is responsible for resolving single audit findings reported under
           this CFDA number.

           The Pennsylvania Disability Determination Services (DDS) performs disability
           determinations under SSA’s DI and SSI programs in accordance with Federal
           regulations. The DDS is reimbursed for 100 percent of allowable costs. The
           Department of Labor and Industry (L&I) is the Pennsylvania DDS’ parent agency.


           1
             In January 2009, the President’s Council on Integrity and Efficiency was superseded by the Council of
           the Inspectors General on Integrity and Efficiency, Inspector General Reform Act of 2008, Pub. L No.
           110-409 § 7, 5 U.S.C. App. 3 § 11.
Page 2 – Candace Skurnik

The Office of Vocational Rehabilitation (OVR) in L&I provides vocational rehabilitation
services to Social Security beneficiaries. SSA reimburses OVR for direct costs of items
purchased for these individuals and indirect costs related to administrative, placement,
and counseling services as well as tracking and monitoring work activity.

The single audit reported:

1. OVR could not provide complete documentation to support SSA reimbursements
   totaling $16,025 for vocational rehabilitation services (Attachment A, pages 1 and 2).
   The corrective action plan indicated that supporting documentation for the SSA
   reimbursements will be obtained from its mainframe system (Attachment A,
   pages 1 and 2).

2. Documentation was not maintained for the authorization and testing of changes to
   the DDS’ VERSA application. Further, access to the test and production libraries in
   VERSA was not limited to authorized staff (Attachment A, pages 3 through 6). The
   corrective action plan indicated emails documenting authorization and testing of
   program changes are now retained and that only authorized staff has access to both
   the test and production environment (Attachment A, pages 4 and 5).

3. The Commonwealth of Pennsylvania is not in compliance with the Cash
   Management Improvement Act (CMIA) regulations and procedures for clearance
   pattern requirements and interest calculations. As a result, the interest liability on
   the CMIA Annual Report, as submitted to the Department of the Treasury, was
   misstated by at least $5.6 million (Attachment A, pages 7 through 15). The
   corrective action plan indicated a new check clearance study had been completed
   (Attachment A, pages 12 through 14).

We recommend that SSA:

1. Determine whether the reimbursements to OVR totaling $16,025 were appropriate
   and, if not, request a refund of the unallowable costs.

2. Ensure OVR is maintaining adequate documentation to support SSA
   reimbursements for vocational rehabilitation services.

3. Verify that the identified weaknesses in computer controls over the DDS’ VERSA
   application have been adequately resolved.

4. Ensure that DDS cash draws are based on the CMIA.
Page 3 – Candace Skurnik

The single audit also disclosed the following findings that may impact DDS operations
although they were not specifically identified to SSA. I am bringing these matters to
your attention as they represent potentially serious service delivery and financial control
problems for the Agency.

•   Adequate documentation was not maintained to support contracting and
    procurement (Attachment B, pages 1 through 3).

•   General computer controls needed improvement (Attachment B, pages 4
    through 13).

•   Procedures were not in place to reverify that existing vendors had not been debarred
    or suspended (Attachment B, pages 14 and 15).

•   Control deficiencies existed in the charging of personnel costs (Attachment B,
    pages 16 and 17).

Please send copies of the final Audit Clearance Document to Shannon Agee. If you
have questions, contact Shannon Agee at (816) 221-0315, extension 1537.




                                                 Patrick P. O’Carroll, Jr.

Attachments
Attachment A
Page 1 of 15
Attachment A
Page 2 of 15
Attachment A
Page 3 of 15
Attachment A
Page 4 of 15
Attachment A
Page 5 of 15
Attachment A
Page 6 of 15
Attachment A
Page 7 of 15
Attachment A
Page 8 of 15
Attachment A
Page 9 of 15
Attachment A
Page 10 of 15
Attachment A
Page 11 of 15
Attachment A
Page 12 of 15
Attachment A
Page 13 of 15
Attachment A
Page 14 of 15
Attachment A
Page 15 of 15
Attachment B
Page 1 of 17
Attachment B
Page 2 of 17
Attachment B
Page 3 of 17
Attachment B
Page 4 of 17
Attachment B
Page 5 of 17
Attachment B
Page 6 of 17
Attachment B
Page 7 of 17
Attachment B
Page 8 of 17
Attachment B
Page 9 of 17
Attachment B
Page 10 of 17
Attachment B
Page 11 of 17
Attachment B
Page 12 of 17
Attachment B
Page 13 of 17
Attachment B
Page 14 of 17
Attachment B
Page 15 of 17
Attachment B
Page 16 of 17
Attachment B
Page 17 of 17
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
